   June 14, 2002




Acquisition
Army Transition of Advanced
Technology Programs to Military
Applications
(D-2002-107)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Home Page of the
  Inspector General of the Department of Defense at www.dodig.osd.mil/
  audit/reports or contact the Secondary Reports Distribution Unit of the Audit
  Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
ACTD                  Advanced Concept Technology Demonstration
AMC                   Army Materiel Command
ATD                   Advanced Technology Demonstration
S&T                   Science and Technology
STO                   Science and Technology Objective
TRL                   Technology Readiness Level
TTA                   Technology Transition Agreement
            Office of the Inspector General of the Department of Defense

Report No. D2002-107                                                   June 14, 2002
   (Project No. D2001AB-0105)

                   Army Transition of Advanced Technology
                     Programs to Military Applications

                                  Executive Summary


Who Should Read This Report and Why? Science and technology officials in the
Office of the Secretary of Defense and the Department of the Army should read this
report because it evaluates the Army’s current process for enhancing the likelihood that
emerging technology would reach the warfighter.

Background. Congress and DoD officials have voiced concern that technology has not
quickly transitioned to the warfighter. A goal of the Department of the Army is to
modernize its forces by introducing technology capabilities at a more rapid pace without
incurring the need for additional funds. In October 1999, the Army announced its new
Objective Force initiative to develop a more mobile and responsive force that is able to
deploy troops anywhere in the world in a short period of time. To help achieve the
objective, the Army had about 260 separate funded advanced technology projects or
tasks from FYs 1999 through 2001, with an average aggregate funding level of more
than $700 million to develop capabilities for introduction to military applications.

Results. Acquisition program officials were not adequately involved in fully
facilitating and supporting the successful and timely transition to the warfighter. We
reviewed 20 science and technology projects with expenditures of $441.5 million that
included 6 advanced technology demonstration programs and 14 science and technology
objective programs. Improvements were needed because:

   •   none of the 18 projects had formally agreed to technology readiness levels,

   •   five science and technology projects that were advanced technology
       demonstrators did not have acquisition program funding necessary for
       transitioning, and

   •   of two science and technology projects that transitioned with expenditures of
       $36.3 million, one did not meet the exit criteria before it transitioned and the
       other required substantial additional development by the receiving acquisition
       program office.

As a result, unless recommended measures are undertaken to effectively coordinate
formal acquisition program support for the 18 science and technology projects that have
planned additional funding of $244.4 million, the Army cannot make fully informed
and prudent decisions on whether continued investment is warranted. See the Finding
section for the detailed recommendations (finding A).
Management did not use the performance appraisal process effectively to assist in
achieving DoD performance goals and the Army Materiel Command’s corporate
objective. Science and technology officials’ management performance plans need to
include technology transitioning as a performance element. See the Finding section for
the detailed recommendations (finding B).

Management Comments. The Deputy Assistant Secretary of the Army (Research and
Technology) commented on the draft report. We did not receive comments from the
Commander, Army Materiel Command to the draft issued on February 25, 2002. The
Deputy Assistant Secretary concurred with most of the recommendations and stated that
the recommended policies had been put in place for advanced technology
demonstrations programs; however, science and technology objective programs should
not be held to the same standard because they are in earlier stages of development. He
nonconcurred with reviewing technology paths for technologies included in the audit,
stating that, by nature, those projects will not always be successful in transitioning to
acquisition and only the most technically mature efforts should be planned for
transitioning. The Deputy Assistant Secretary concurred with linking personnel
performance plans to program performance and stated that the linkage should apply
only to advanced technology demonstration managers and not to the less mature science
and technology objective programs. Management comments are discussed in each
finding and the complete text is included in the Management Comments section.

Audit Response. Management comments were generally nonresponsive. We believe
that there is no significant difference between advanced technology demonstration and
science and technology objective programs because both use advanced technology
development funds. Based on the audit’s results, the Army’s policies for coordination
are not being followed in all respects, and additional Army procedures for advanced
technology development programs need to be issued. We request that the Assistant
Secretary of the Army for Acquisition, Logistics, and Technology and the Commander,
Army Materiel Command provide comments to the final report. The comments should
be received by July 15, 2002.




                                            ii
Table of Contents
Executive Summary                                                       i

Introduction
     Background                                                         1
     Objectives                                                         3

Findings
     A. Army Science and Technology Process                             4
     B. Performance Assessments                                        18

Appendixes
     A. Scope and Methodology
         Scope                                                         23
         Methodology
         Management Control Program Review                             24
         Prior Coverage                                                25
     B. Technology Readiness Levels and Their Definitions              26
     C. Army Science and Technology Approval Process                   27
     D. Summary of Advanced Technology Development Projects Reviewed   28
     E. Report Distribution                                            34


Management Comments
     Department of the Army                                            35
Background
DoD Acquisition Policy. DoD Directive 5000.1, “The Defense Acquisition System,”
(Incorporating Change 1, January 4, 2001) October 23, 2000, states that science and
technology (S&T) projects shall address user needs. Programs will be broad based,
spanning all DoD S&T, to anticipate future needs and those technologies not being
pursued by civil or commercial communities. The S&T projects will preserve long-
range research and should enable rapid transition from the S&T base to useful military
products. Specific S&T projects must focus on increasing the effectiveness of a
capability, decreasing cost, increasing operational life, and improving the capabilities of
systems through planned upgrades.

Science and Technology Guidance. An affordability task force chartered by the
Director for Defense Research and Engineering issued a handbook and the Deputy
Under Secretary of Defense (Science and Technology) issued a guide to the Military
Departments and Defense agencies concerning practices that they believed, if instituted,
would assist in transitioning technology. In addition, in response to congressional
concerns that the DoD had not been successful in transitioning technology, the Under
Secretary of Defense for Acquisition, Technology, and Logistics issued a report to
Congress identifying why technology was not transitioning.

        Addressing Affordability in Defense Science and Technology (S&T): A
Handbook for S&T Managers. In October 1999, the DoD S&T Affordability Task
Force issued a Handbook that stresses the importance of early involvement of all
candidate acquisition programs in advanced technology efforts. The Handbook states
that early involvement of advanced technology candidate acquisition programs in
research development, design, test planning, manufacture, training, logistics, finance,
and contracts are essential to address key issues that lock in a majority of the life-cycle
costs of programs. The Handbook states that management tools for ensuring effective
technology transitioning include establishing integrated product teams (known as IPTs),
creating IPT charters, identifying quantitative metrics and key exit criteria, and
developing a formal transition plan that is officially signed by the “customer” (usually
an acquisition community member) and the technology manager. Additional
management tools include preparing an approved memorandum of agreement or
understanding that includes a funding strategy, which commits the acquisition
community to transition the technology.

        Technology Transition for Affordability: A Guide for S&T Program
Managers. In April 2001, the Deputy Under Secretary of Defense (Science and
Technology) issued a Guide to provide S&T program managers with strategies to
transition technology to the acquisition community. The Guide states that the transition
of technology should be timely (get the technology in the hands of the warfighter as
soon as possible) and cost-effective (provide the best technology at the lowest possible
cost). The Guide states that a key strategy for transitioning technology is early
coordination between the S&T project manager and the receiving acquisition manager
to promote a mutual understanding between the two parties. Early coordination assists
the S&T project manager’s understanding of how to transition the technology with the
time-phased requirements of the receiving acquisition manager. The receiving
acquisition manager, in turn, is kept current on the maturity of the technology and is
                                             1
better able to plan and schedule the technology introduction. A tool for fostering this
coordination is to establish IPTs that involve the managers of the candidate acquisition
programs. The Guide provides that IPTs should include the S&T project manager, the
S&T contractor, the acquisition manager and the respective contractor(s), and test and
evaluation representatives. An IPT should be formed early in the life cycle of a
technology’s development to address key issues that can greatly affect life-cycle cost
and the eventual acceptance and implementation of the technology. Issues that the IPT
should address include defining and agreeing upon quantifiable metrics, such as cost,
performance, and schedule; exit criteria; and the maturity of the technology at
transition identified as technology readiness levels (TRLs) (the TRLs are described in
Appendix B). The Guide states that those issues and others should be agreed upon in
formal documentation such as memorandums of agreement or understanding and
technology transition plans.

        Under Secretary of Defense for Acquisition, Technology, and Logistics
Report to Congress. In June 2001, the Under Secretary of Defense for Acquisition,
Technology, and Logistics provided a report to the congressional defense committees
on technology transition from the Defense Advanced Research Projects Agency. The
report provided Congress with the results of a review of the transition of research to the
Military Departments from the Defense Advanced Research Projects Agency and
addressed issues that were also applicable for the Army transition of research
technology to acquisition program managers and, ultimately, to the warfighter. The
report cited a key reason for difficult technology transition as being the need for
collaboration among three diverse groups: the S&T researcher, the acquisition program
manager, and the military user. Effective transition requires the groups to work
together as a team, which is frequently a difficult issue. In addition, for a technology
transition to be successful, the acquisition program manager’s prime contractor must be
supportive of the technology insertion, and the technology must demonstrate a greater
return than the existing capability.

Army S&T Process. The Army Science and Technology Master Plan (the Plan)
presents the S&T investments that are required to achieve the Army vision of
transforming its force’s capabilities to dominate the full spectrum of operations. The
Army vision is to create an Objective Force capable of deploying a combat brigade
anywhere in the world in 96 hours, a combat division in 120 hours, and five combat
divisions anywhere in 30 days. The Army S&T projects were reshaped to speed
development of technologies necessary to achieve the Army’s transformation vision.
The transformation path from today’s force to the future Objective Force includes
incorporating technologies into existing and developing systems. The Army had about
260 separately funded advance technology projects or tasks from FYs 1999 through
2001, with an average aggregate funding level of more than $700 million per year to
develop capabilities for introduction to military applications.




                                            2
Objectives
The audit objective was to determine whether the Army was successful in transitioning
advanced technology projects to military applications. Specifically, we examined
whether the Army had established a process to successfully transition technology. We
also evaluated management controls in the Army as they relate to the audit objective.
See Appendix A for a discussion of the audit scope and methodology and the review of
the management control program.




                                          3
                    A. Army Science and Technology
                       Process
                    The Army S&T management created an extensive management process
                    in 1999 to plan, review, and provide oversight of technology efforts that
                    were proposed to transition to the warfighter. However, improvements
                    are still needed because acquisition program officials were not
                    adequately involved in fully facilitating and supporting the successful and
                    timely transition to the warfighter for 18 science and technology projects
                    that had expenditures of $405.2 million.1 For example, none of the
                    18 projects had formally agreed to technology readiness levels, which
                    are agreed-upon levels of technology maturity development that are
                    required for transitioning to the receiving acquisition program manager.
                    Also, five of the science and technology projects, which were advanced
                    technology demonstrators, did not have the necessary acquisition
                    program funding for transitioning. Finally, for the two science and
                    technology projects that transitioned with expenditures of $36.3 million,
                    one did not meet the exit criteria before it transitioned and the other
                    required substantial additional development by the receiving acquisition
                    program office. Acquisition program officials were not adequately
                    involved in transitioning technologies because the Army S&T
                    management process did not require the level of coordination between
                    acquisition officials that was advocated in the Deputy Under Secretary of
                    Defense (Science and Technology) guidance. Specifically, integrated
                    product teams were not established or they did not include acquisition
                    program managers, the S&T manager did not establish formal
                    agreements with acquisition program managers that included technology
                    readiness levels and exit criteria, and S&T projects were not budgeted by
                    acquisition users to transition. As a result, unless measures are
                    undertaken to effectively coordinate the 18 science and technology
                    projects that have planned additional funding of $244.4 million, the
                    Army cannot make fully informed and prudent decisions on whether
                    continued investment is warranted.

Army Science and Technology Review Process
           Army S&T Review Process. The S&T community has an extensive technology
           planning, review, and oversight process to assist the Army in achieving the
           future Objective Force. The Army Pamphlet 70-3, “Army Acquisition
           Procedures,” July 15, 1999, (Army guidance) describes the S&T review process
           and provides discretionary guidance on S&T projects. At the beginning of each
           fiscal year, the Deputy Assistant Secretary for Research and Technology and the
           Director, Force Development Office of the Deputy Chief of Staff for Programs,
           issue guidance on new technology proposals and existing technology reviews.

1
    A total of 20 science and technology projects were reviewed with expenditures of $441.5 million.



                                                      4
           New technology proposals are identified as S&T objectives (referred to in the
           Army as STOs) and are reviewed and approved during Army’s annual S&T
           oversight process. The annual S&T oversight process also reviews ongoing
           technology projects2 that have been in development for 3 years; that have been
           revised in terms of cost, schedule, or scope; and that have been completed.

           The Army S&T Program received management direction and approval from
           three executive-level groups in developing the Plan. The first level of review is
           the Warfighter Technical Council, a one-star-level group that performs detailed
           reviews of all proposed and ongoing STOs, advanced technology demonstrations
           (ATDs) and advance concept technology demonstrations (ACTDs). The
           Warfighter Technical Council is co-chaired by the Director of Technology,
           Office of the Deputy Assistant Secretary for Research and Technology, and the
           Assistant Chief of Staff for Combat Development, Army Training and Doctrine
           Command. The Training and Doctrine Command represents the military user in
           identifying and supporting areas for S&T research. The second level of review
           is the Army S&T Working Group, co-chaired by the Deputy Assistant Secretary
           for Research and Technology and the Assistant Deputy Chief of Staff for
           Programs (Force Development). The Army S&T Working Group provides two-
           star-level resolution of issues and reviews and approves research efforts for
           STOs and ATDs. The Army’s final approval level is the S&T Advisory Group,
           a four-star-level group that is co-chaired by the Assistant Secretary of the Army
           for Acquisition, Logistics, and Technology and the Army Vice Chief of Staff.
           Army acquisition representation is provided at all three reviews. Appendix C
           provides a flow chart depicting the Army S&T oversight process.

                   Technology Project Documentation. As part of the S&T review
           process, S&T project managers are required to submit documentation providing
           an overview of proposed and ongoing projects. The required documents include
           a project description chart, a product description chart, TRLs and a milestone
           chart, and the Ten-Question Quad Chart. Those four documents are used as a
           basis for determining whether or not a proposed effort becomes a STO, ATD,
           or ACTD. The project description chart provides the program objective and
           identifies intermediate milestones and final product applications (with metrics) to
           Army systems. The product description chart identifies the program’s
           technologies and provides additional STO information such as affordability
           metrics and approval dates for the Mission Needs Statement or the Operational
           Requirements Document. The TRL milestone chart provides the TRLs for the
           technologies as well as the significant high-level metrics that will be achieved
           throughout the duration of the technology development. The Ten-Question
           Quad Chart identifies the purpose of the research, the technology barrier to be
           overcome, the quantitative metrics to be met, the TRLs to be achieved, the
           estimated timeframes for the technology to be available, and the office or
           acquisition program that endorsed the research effort.




2
    Other technology efforts include ATDs and ACTDs.

                                                  5
        Ten-Question Quad Chart. The annual oversight process uses the Ten-
Question Quad Chart as one of the key documents to evaluate proposed and
ongoing S&T projects. The Ten-Question Quad Chart provides the data
necessary to evaluate the merits of the technology and is divided into four
discrete sections.

The first section describes the problem, the barriers to solving the problem, and
the plan to overcome the barriers. The second section discusses how the S&T
project fits into Army needs, ongoing and completed S&T capabilities, and lists
TRLs. The third section provides the benefits of the S&T project in terms of
increased capability and cost savings, the transition milestones, the candidate
acquisition programs or S&T projects to receive the technology, and the office
that endorsed the research. The final section provides the schedule and the cost
of major tasks.
The Army requires that all S&T projects have a technology path or plan that
identifies the candidate programs for the transitioning technology in the Ten-
Question Quad Chart. Our review of the Ten-Question Quad Chart identified
that it does not accurately portray the technology transition paths or plans. For
example, the Aviation and Missile Command, Aviation Applied Technology
Directorate, planned seven STOs or ATDs for aviation platforms. According to
the Ten-Question Quad Chart, four of the STOs or ATDs identified
five candidate aviation platforms for the developing technology, with plans for
three of those platforms to transition from FYs 2002 through 2004. However,
the receiving acquisition program managers stated that they had not planned,
scheduled, or budgeted for the technology introduction. The acquisition
program managers stated that they were monitoring the STO or ATD
technologies and that when they believed the technologies were mature, they
would consider introducing the technologies to the aviation platform during a
scheduled platform upgrade. The introduction would occur if the funding was
available and if the technology was a sufficient upgrade to warrant the
expenditure. The following are two examples of ongoing technologies that lack
formal acquisition program support.
       Helicopter Active Control Technology STO. The Helicopter Active
Control Technology STO was proposed to demonstrate a 60-percent
improvement in weapon pointing accuracy, a 50-percent increase in agility and
maneuverability, and a 30-percent reduction in flight test time. The STO Ten-
Question Quad Chart showed that the S&T was scheduled to transition to the
Chinook helicopter (CH-47) upgrade in FY 2003, the Blackhawk helicopter
(UH-60) upgrade in FY 2006, and the Apache helicopter (AH-64) upgrade in
FY 2007. Although the technology was planned to be demonstrated on the
Apache helicopter, the acquisition program managers for the Chinook,
Blackhawk, and Apache had not prepared detail plans or budgets for the
technology to be added to their helicopter systems.

        Advanced Rotorcraft Transmission II. The Advanced Rotorcraft
Transmission II STO goals were to demonstrate a 25-percent increase in drive
system power-to-weight ratio, a 10-percent reduction in drive system operating
cost, and a 10-decibel reduction in transmission-generated noise. The Advanced

                                    6
    Rotorcraft Transmission II development effort was conducted on the Osprey tilt-
    rotorcraft (V-22), a non-Army helicopter. The Ten-Question Quad Chart for
    the Advanced Rotorcraft Transmission II identified the Blackhawk helicopter
    (UH-60X) in FY 2006, the Comanche helicopter (RAH-66) in FY 2006, the
    Apache helicopter (AH-64) in FY 2004, and the Osprey tilt-rotorcraft (V-22) in
    FY 2003 as candidate programs for the technology. However, none of the
    Army acquisition program managers had prepared detail plans or budgets for the
    technology to be added to their helicopter systems.

    Although the S&T annual oversight process includes representatives from the
    user community (the Army Training and Doctrine Command) and the
    acquisition community (the Army Deputy for Systems Management and
    Horizontal Technology Integration), coordination with the specific receiving
    acquisition program managers is not required, and therefore makes the candidate
    acquisition systems identified in the Ten-Question Quad Chart questionable. To
    improve the merits of the Ten-Question Quad Chart and to enhance the
    likelihood of technology transition, the S&T project manager should be required
    to establish and maintain an up-to-date formal agreement with the candidate
    acquisition programs that are identified in the Ten-Question Quad Chart. The
    establishment of a formal agreement should be a condition for continued S&T
    funding.

Army Science and Technology Projects Reviewed
    The audit examined 20 S&T projects funded with research, development, test, and
    evaluation funds; advanced technology development appropriations expenditures of
    $441.5 million and planned additional funding of $244.4 million at the two Army
    sites visited. The 20 S&T projects included 14 STOs and 6 ATDs at either the
    Tank-automotive and Armament Command, Armament Research, Development,
    Engineering Center; or the Aviation and Missile Command, Aviation Applied
    Technology Directorate.

    The audit evaluated the 20 S&T projects and the extent of program coordination,
    using the Handbook and Guide, with the planned receiving acquisition program(s) or
    other technology effort. The Handbook and Guide cited best business practices
    include the creation of integrated product teams that are accompanied by an
    established charter. To be effective, the IPTs must include the acquisition program
    manager(s) and the prime contractor to facilitate the technology integration. The
    Handbook and Guide also provide for the formal establishment of memorandums of
    agreement or understanding with the acquisition program manager(s), including
    agreements on TRLs and exit criteria, and for coordination to provide acquisition
    programs with the necessary funding to continue the S&T integration. The following
    table summarizes the audit results by the STOs and the ATDs. See Appendix D for
    a summary of the advanced technology development projects that we reviewed.




                                       7
                          Summary of Science and Technology Objectives (STOs) and
                           Advanced Technology Demonstrations (ATDs) Examined
                             (ratio shows positive responses to total examined)

                                             Number of Occurrences             Percent of Occurrences
            Action                            14 STOs    6 ATDs                 14 STOs 6 ATDs

Integrated Product Team
  Team established                             7 of 14        6 of 6                 50         100
  Charter approved                             3 of 73        4 of 63                43          67
  Acquisition program
    manager included                           9 of 164       4 of 114               56          36
  Acquisition program
    prime contractor
    included                                   7 of 165       5 of 115               44          45

Acquisition Program Manager
 MOA/MOU                                       3 of 296       2 of 116               10          18
 Exit TRLs formally agreed                     0 of 267       0 of 37                 0           0
 Exit criteria formally
   agreed                                      1 of 296       2 of 116                3         18

Funding by acquisition
 user to transition                            4 of 208       0 of 69                20           0




3
    Charters were established for projects that had IPTs.
4
    S&T projects that established IPTs applied to more than one existing acquisition program.
5
 S&T projects that established IPTs applied to more than one existing acquisition program prime
contractor.
6
    The 14 STOs and 6 ATDs applied to 29 and 11 existing acquisition programs, respectively.
7
 Two STOs that applied to three acquisition programs and two ATDs that applied to eight existing
acquisitions programs were completed before the requirement for TRLs.
8
 The number of STOs that should have had funding was 20 instead of 29 because for 9 STOs funding
documentation was unavailable, the technology was a manufacturing improvement, or the user had not
been defined.
9
 The number of receiving acquisition programs for ATDs that should have had funding was 6 instead of
11 because Aviation Applied Technology Directorate officials stated that, for five programs, only pieces
of the Rotocraft Pilots Association technology were to transition.

                                                       8
Integrated Product Teams
    DoD Instruction 5000.2, Operation of the Defense Acquisition System,
    (Including Change 1), January 4, 2001, requires that all S&T and acquisition
    programs establish IPTs. The DoD Instruction states that IPTs are a
    multifunctional team assembled around a product or services, and are
    responsible for advising the S&T project manager and acquisition program
    manager on cost, schedule, and performance of that product. Army acquisition
    procedures state that IPTs are a management technique that integrates all
    activities, from product concept through production and field support.

    Integrated Product Teams Established. The establishment of IPTs was
    required for all the STOs and ATDs; however, despite guidance in the
    Handbook and the Guide, only 7 of 14 STOs established IPTs. All six ATDs
    that we reviewed had established IPTs. The Army S&T guidance does not
    require IPTs for STOs, but does require IPTs for ATDs.

    Integrated Product Team Charters. In addition to the establishment of IPTs,
    the Handbook and Guide recommend that charters be established for the teams.
    The Handbook states that IPT charters provide the best way to minimize team
    misunderstanding. The Handbook and Guide provide that each charter should
    include:

           •   The mission and objectives of the team,

           •   The metrics to evaluate the team’s progress,

           •   The scope of the team’s responsibility,

           •   The relationship of the team with other teams,

           •   The authority and accountability of the team,

           •   The resources available for the team, and

           •   A team membership list.

    For the seven STOs that established IPTs, three had approved charters, and four
    of the six ATDs had approved charters. The Army S&T guidance does not
    require the establishment of charters.

    Acquisition Program Manager and Prime Contractor. One goal of the Army
    S&T Program is to transition technology to an acquisition program and,
    subsequently, to the warfighter. To transition technology faster, at reduced
    cost, and ensure interoperability with existing and future warfighting systems,
    the IPT should include the receiving S&T project manager and the receiving
    acquisition program manager’s prime contractor, as appropriate. For the
    7 STOs that established IPTs, 16 acquisition programs or S&T projects were
    identified as candidates to receive the technology. However, only 9 of the
    16 acquisition programs or S&T project management offices and only 7 of the
                                         9
    16 prime contractors were members of IPTs. For the 6 ATDs that established
    IPTs, 11 acquisition programs or S&T projects were identified to receive the
    emerging technology. The 11 acquisition programs or S&T projects had
    5 prime contractors participating (some programs had duplicate contractors).
    For the 6 ATDs, only 4 of 11 acquisition programs or S&T project management
    offices participated in the integrated teams. Also, only 5 prime contractors
    associated with the 11 acquisition programs were represented as members of the
    ATD integrated teams. The Army S&T guidance does not require the inclusion
    of acquisition program officials or their prime contractors in IPTs for STO or
    ATD efforts.

Role of Acquisition Program Managers
    To improve the success of technology transitioning, acquisition program
    managers must make a firm commitment to transition the technology to their
    programs. The commitment should include a formal and up-to-date
    memorandum of agreement or understanding between the S&T project manager
    and the acquisition program manager(s). Each agreement or understanding
    should specify the relationship and the respective responsibilities of the S&T
    project manager and the receiving acquisition program manager. The agreement
    should address system requirements, funding, personnel support, exit criteria,
    and TRLs.

    Memorandums of Agreement or Understanding. The 14 STOs identified
    29 existing acquisition programs or S&T projects to which they could transition
    their technology. Formal memorandums of agreement or understanding
    between the STO managers and the receiving acquisition programs or S&T
    projects were available for only 3 of the 29 existing acquisition programs or
    S&T projects. The 6 ATDs identified 11 existing S&T projects or acquisition
    programs for technology transition; however, only 2 memorandums of
    agreements were established. Army guidance does not require memorandums of
    agreement or understanding.

    Technology Readiness Levels. DoD adopted TRLs in response to a General
    Accounting Office Report, Best Practices: Better Management of Technology
    Development Can Improve Weapon System Outcomes, issued in July 1999, and
    mandated within the Army S&T community in early 2000. The TRLs are an
    assessment of the technical maturity for an S&T project. The TRL ratings
    range from one through nine, with more mature S&T efforts having a higher
    TRL number and a lower risk for the acquisition program.

    Although TRLs were established for all S&T projects, they were not negotiated
    and formally agreed upon with the acquisition program managers or other S&T
    project managers. For the 14 STOs, 26 candidate acquisition programs or S&T
    projects to receive the emerging technology were identified. For the six ATDs,
    three acquisition programs or S&T projects were identified as potential
    receiving candidates. However, none of the 14 STO projects or the 6 ATDs
    established formal agreements with the receiving candidates on the TRL that the
    technology would be developed to prior to transitioning. Army guidance does
    not require formal agreements on TRLs between the S&T project manager and
                                      10
     the receiving candidate. As part of the overall coordination process, the S&T
     project manager and the receiving candidate should be required to formally
     agree on the TRL to enhance technology transitioning.

     Exit Criteria. The exit criteria establish goals for S&T projects and determine
     the entrance criteria for the technology that transitions. The S&T project
     manager and the acquisition program manager, in collaboration with the IPT,
     should develop exit criteria that are appropriate for transitioning the technology.
     Exit criteria are used to track progress in technical, schedule, and management-
     risk areas. The 14 STOs identified 29 candidate acquisition programs or S&T
     projects, and the 6 ATDs identified 11 candidate acquisition programs or S&T
     projects. However, only one STO and two ATDs formally coordinated the exit
     criteria with the acquisition program manager or S&T project managers.
     Army guidance does not require S&T project managers to establish formal
     agreements with acquisition program managers or other recipient S&T efforts
     on TRLs or exit criteria. The Army should establish a requirement for formal
     agreements with all planned technology recipients for continued funding.

Funding By Acquisition User for Transition
     The DoD and the Services’ research, development, testing, and evaluation
     budget is divided into seven budget activities. The S&T community receives
     funding from only the first three budget activities: basic research, applied
     research, and advanced technology development. The acquisition community is
     funded with three of the last four budget activities: demonstration and
     validation, engineering and manufacturing development, and operational systems
     development. The last budget activity, management support, is directed toward
     support of installations or operations required for general research and
     development use. S&T projects are not funded from the budget activity fund
     appropriated for the acquisition community, and acquisition programs are not
     funded from the budget activity fund appropriated for the S&T community. The
     separation of research, development, testing, and evaluation funding between
     the S&T and acquisition communities and the shrinking of the research,
     development, testing, and evaluation budget makes coordination between the
     S&T project managers and acquisition program managers very critical. If STOs
     and ATDs are critical to future and existing weapon systems, and the technology
     is successfully demonstrated using coordinated exit criteria and TRLs, the
     acquisition community must set funds aside for transitioning.

     This review identified that receiving acquisition program managers were not
     providing the funding necessary for technology to transition. The 14 STO and
     6 ATD projects evaluated were all funded from the Advanced Technology
     Development budget, generally through the final demonstration of the
     technology. However, only 4 of the 20 candidate acquisition program managers
     for the 14 STOs and none of the 6 candidate acquisition program managers for
     the 5 ATDs that were scheduled to receive technology had set aside funding to
     continue development after the technology transitions (1 ATD had 2 acquisition
     program candidates).

                                         11
     Formal agreements between the S&T project manager and the acquisition
     program manager as a requirement for continued S&T funding may highlight
     projects that are not likely to transition because the acquisition program manager
     had not adequately budgeted for the technology transition. Without adequate
     funding for technology transitioning, the S&T community will not be able to
     determine whether continued investment in S&T project is beneficial.

Recent Initiatives and Changes
     The DoD and the Army recognized that technology has not transitioned to the
     warfighter as desired. To enhance the prospects of technology transitioning,
     DoD proposed establishing formal technology transition agreements, and the
     Army established Director(s) positions within the program executive offices to
     enhance technology transitioning.

     Technology Readiness (Transition) Agreements. The Deputy Under Secretary
     of Defense (Science and Technology) issued interim guidance on July 5, 2001,
     that proposed the use of a Technology Readiness (Transition) Agreement. The
     Agreement would represent agreements between the S&T project managers and
     the candidate acquisition program managers for the emerging technology. The
     S&T project manager would provide a description of the technology or
     capability, the status of the technology, the technology development strategy,
     key technical measures of the readiness to transition, and the project plan,
     including milestones in the Agreement. The Agreement would also require the
     acquisition program manager to provide a description of the acquisition
     program, the program technology needs, and an integration strategy for the new
     technology. The S&T project manager and the acquisition manager would sign
     the Agreement and review it periodically. The Deputy Under Secretary of
     Defense (Science and Technology) did not require the establishment of an
     Agreement, and its use is advisory.

     Army Reorganization. On October 26, 2001, the Army Chief of Staff
     reorganized the program executive officer and the program manager structure.
     The action abolished the positions of the Deputies for System Acquisition,
     Aviation and Missile Command, the Tank-automotive and Armaments
     Command, and the Communications Electronics Command and realigned their
     functions and assigned projects and acquisition program managers to existing,
     reorganized, or newly created program executive offices. The reorganization
     established a Director for Science and Technology (Director) in each program
     executive office. The Directors will be responsible for transitioning projects to
     the acquisition community from the Army S&T community. The details of the
     reorganization had not been determined; however, the Directors will be
     responsible for management and oversight of selected advanced technology
     development funding allocated for S&T activities. The Assistant Secretary will
     determine the amount of S&T funding that the Directors for Research and
     Technology will receive.




                                         12
Management General Comments to the Report and Audit
Response
    Management Comments. The Deputy Assistant Secretary (Research and
    Technology) (the Assistant Secretary) stated that the role of the S&T community
    is to provide near-term capability and far-term focus for the future. It is the
    responsibility of the S&T community to bring technology options to the table.
    Once the technology has shown an appropriate level of maturity, the S&T
    managers negotiate with acquisition program managers to identify appropriate
    transition points. When the acquisition program manager determines that the
    technology is needed and can meet the program schedule, the acquisition
    manager will seek transition funding.

    The report does not address the primary role of all of S&T efforts, which is to
    deliver options to the warfighters so that they can choose the best approach
    available at the time needed. It is critical that the S&T community be allowed to
    do exploration prior to discovery . . . to look at problems with an open solution
    set, vice a pre-determined path. The ability to keep the options open is the main
    reason for not requiring transition funding for all S&T efforts. The Army has
    implemented recommendations from the General Accounting Office Report
    “Better Management of Technology Development can Improve Weapon Systems
    Outcomes.” The General Accounting Office recognized that the S&T
    organization has the responsibility to mature technology to high TRLs, hence
    adoption of TRLs as a key indicator of maturity. The General Accounting
    Office report indicated that the DoD S&T community is responsible for
    producing generic rather than weapon-specific technologies. Its goal is to
    conduct research, develop technology, and farm those efforts for potential
    military applications. The S&T role is to show that the technology is feasible;
    however, transition is not the sole purpose. The purpose of STOs and ATDs is
    to focus on technologies needed by the warfighter. The S&T community will
    transition technology if the Army decides that it needs this capability and has
    funds for its acquisition.

    The management comments also provided information on some technology
    transitions and coordination actions that have taken place since the audit.
    Management comments included actions taken to establish TTAs with
    acquisition program managers (Blackhawk, Chinook, Apache, and the
    Comanche program offices) receiving research from the Aviation and Missile
    Research, Development, and Engineering Center and represent roadmaps for
    technology consideration.

    Audit Response. Both new and ongoing S&T efforts are spending limited
    advanced technology demonstration resources. Technologies should have a
    more defined path for transitioning with formal transitioning agreements with
    the acquisition community if the Army’s goal of achieving the future Objective
    Force is to be met. DoD adopted TRLs in response to a General Accounting
    Office report and with the desire that the establishment of TRLs would represent
    an agreement between the S&T and acquisition communities. By establishing


                                       13
    coordination between the two communities, evolving technology in the S&T
    community would do more than provide options to the warfighter; it would
    provide the technology capabilities to the warfighter.

Recommendations, Management Comments, and Audit
Response
    A. We recommend that the Assistant Secretary of the Army for Acquisition,
    Logistics, and Technology, for advanced technology development efforts:

           1. Require the establishment of integrated product teams that
    include representatives from the candidate acquisition program office(s) and
    the acquisition program office prime contractor(s), where appropriate.

    Management Comments. The Assistant Secretary concurred and stated that
    the Army currently requires IPTs that involve acquisition and S&T managers for
    ATDs, but that it would be neither appropriate nor practical for each STO to
    have an IPT. STOs are programs of lesser maturity than ATDs and, even when
    successful, require further development before creation of an IPT and transition
    to acquisition would be appropriate.

    Audit Response. Although management concurred, the comments are
    nonresponsive to the recommendation and conflict with the data in this report.
    As identified in the table in this report “Summary of Science and Technology
    Objectives (STOs) and Advanced Technology Demonstrations (ATDs)
    Examined,” (page 8), all the ATDs had IPTs; however, only 4 of 11 acquisition
    managers were included in the IPTs for the ATDs. To enhance the involvement
    of the acquisition community in evolving technologies, the S&T managers
    should be required to establish IPTs that include the candidate acquisition
    program office(s) and their prime contractor(s). The Department of the Army
    Pamphlet 70-3, “Army Acquisition Procedures – Research, Development, and
    Acquisition,” July 15, 1999, provides guidance in the management of S&T
    programs and the establishment of IPTs; however, the guidance is advisory and,
    as such, does not require the establishment of IPTs. The pamphlet states, “this
    pamphlet provides discretionary guidance on materiel acquisition management,”
    and continues the advisory theme by stating, “the fundamental purpose of this
    version of Department of the Army Pamphlet 70-3 remains the same; provides
    advisory guidance on the materiel acquisition life cycle.”

    The Assistant Secretary stated that establishing IPTs for every STO would be
    neither appropriate nor practical. The Army makes a distinction between STOs
    and ATDs even though STOs and ATDs are both S&T projects using advanced
    technology development funds under the Research, Development, Test, and
    Evaluation appropriation. Additionally, STOs comprise 46 percent of the
    Army’s advanced technology development budget for FY 2002 and have
    specific, measurable, major technological advancements to be achieved. Those
    advancements focus and stabilize advanced technology development efforts.
    Projects under this category have a direct relevance to identified military needs,
    and their development is used to demonstrate the general military use. As such,

                                        14
early coordination with the potential recipient acquisition program is necessary
to enhance the transition of the STO technology. The Army’s review process
requires the identification of weapon programs that STO technology would
transition to as a requirement for STO approval and funding. Early
coordination with potential acquisition recipients is emphasized not only in the
Handbook and Guide, but also in the Defense Systems Management College
course, “Technology Insertion in Defense Systems Acquisitions.” The
Handbook, the Guide, and the technology insertion course do not advocate
lesser coordination for S&T efforts that use advanced technology development
funds. The audit identified that half of the STOs examined had established
IPTs, and that half of those IPTs included representatives from the acquisition
community.

Accordingly, STOs should be consistently held to the same level of development
coordination as the ATDs. We request that the Assistant Secretary of the Army
for Acquisition, Logistics, and Technology reconsider his position on requiring
the establishment of IPTs for ATDs and STOs and provide additional comments
to the final report.

        2. Require the establishment of formal agreements between the
science and technology manager and the candidate acquisition program
manager(s) for emerging technologies. The formal agreements should
coordinate exit criteria, technology readiness levels, availability of
transitioning funds, and estimated transitioning timeframes.

Management Comments. The Assistant Secretary concurred and stated that
ATD management plans are approved for all ATDs and document exit criteria,
TRLs, and estimated transition time frames. The signed ATD management
plans serve as the MOA or MOU between the S&T community and the
acquisition manager.

Audit Response. Although management concurred, the comments are
nonresponsive and conflict with the data in this report. The audit examined
ATD management plans and considered them in developing the audit results.
The audit results for ATDs (page 8) contradict management’s comments that
formal agreements have been appropriately established. Management comments
also exclude applicability to STOs. As presented in the audit response to
Recommendation 1., formal agreements are needed for STOs as well as ATDs.

Further, the DoD has been placing greater emphasis on coordinating advanced
technology demonstration-funded efforts to improve technology transitioning.
The Deputy Under Secretary of Defense for Science and Technology, in a
July 5, 2001, memorandum to the Military Departments and Defense agencies,
recommended the development of TRLs and, unlike the Army, made no
distinction between emerging technologies. Accordingly, we request that the
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
reconsider his position and provide comments to the final report on the
deficiencies identified in the report and on requiring formal agreements for all
ongoing STOs as well as ATD efforts.


                                    15
       3. Require the establishment of formal memorandums of agreement
or understanding and technology transition agreements between the science
and technology manager and candidate acquisition program manager(s).
The establishment of the formal agreements should be a requirement for
continued research, development, test and evaluation funding.

Management Comments. The Assistant Secretary concurred and stated that
Army’s ATD management plans serve as formal MOAs/MOUs and as TTAs.

Audit Response. Although management comments concurred, the comments
were not fully responsive to the recommendation. The comments excluded
applicability to STOs. Therefore, we request the Assistant Secretary of the
Army for Acquisition, Logistics, and Technology to provide comments to the
final report that address applicability to STOs.
       4. Require the participation of the program executive officer and the
acquisition program manager in the Army science and technology annual
review process. The program executive officer and acquisition program
manager should review and formally comment on the feasibility of science
and technology projects that are integrating and transitioning into
acquisition programs.

Management Comments. The Assistant Secretary concurred and stated that
action is underway to include the program executive officer in the Army Science
and Technology Working Group that approves all STOs and ATDs.

Audit Response. Management comments were responsive to the
recommendation.

       5. Review the technology paths or plans for the 18 science and
technology projects identified in this audit and discontinue any project that
does not have formal acquisition program support.

Management Comments. The Assistant Secretary nonconcurred and stated
that S&T examines the feasibility of technology to solve warfighter problems,
and that only the most technically mature efforts in the advanced technology
development program should be considered and planned for transitioning. The
General Accounting Office criticized the Services for attempting transitions
when technology was immature.

The Assistant Secretary stated that the nature of S&T in relation to acquisition
has three phases; basic, applied, and advanced technology development. Basic
research is discovery and understanding, trying to expand the knowledge. Basic
research does not directly transition to acquisition. Applied research can be
repeated, shows military utility, and can be further evaluated in the most mature
technology environment-- advanced technology development. Advanced
technology development has the highest probability of providing transitionable
products. Within advanced technology development, the Army has three broad
categories of activity; ATDs, STOs, and other advanced technology efforts
(referred to by the Army as non-STOs). ATDs are the most complex efforts
and have the closest link to acquisition programs. STOs are typically less
                                   16
complex and their ability to transition is based upon Army funding priorities and
warfighting requirements. Whether STOs transition or not, they remain
valuable “proof” of technology concepts and capabilities. The remaining
advanced technology efforts (non-STOs) are used to pursue higher risk
technology and have a lower probability of transitioning.

Audit Response. Management comments were nonresponsive and do not
address the intent of the recommendation. We understand the distinction
between basic and applied research and we did not include S&T efforts in those
early stages in this audit. We agree that immature technology should not
transition and believe that strengthening coordination between the S&T and
acquisition community, including formally agreeing to TRLs and exit criteria,
would significantly reduce problems in this area.
The report of the Under Secretary of Defense for Acquisition, Technology, and
Logistics to Congress, in June 2001, cited a key reason for difficult technology
transitions was the need for collaboration among three diverse groups: the S&T
researcher, the acquisition program manager, and the military user. The Under
Secretary’s report stated that effective transitions require the groups to work
together as a team, which is frequently a difficult issue. Management comments
ignore the results of this review summarized in “Summary of Science and
Technology Objectives (STOs) and Advanced Technology Demonstrations
(ATDs) Examined,” (page 8) that improvements are needed for two members of
this diverse group.

The Army requires advanced technology development efforts, ATDs, and STOs
to identify transitioning plans or paths as described in the Army Science and
Technology Review Process (page 4). The process requires technology project
documentation including the Ten-Question Quad Chart that identifies the
planned acquisition program for the emerging technology. This audit examined
the coordination efforts from Army’s Ten-Question Quad Chart between the
S&T community and the identified acquisition program offices. With limited
S&T financial resources, it would be prudent for management to align S&T
efforts in areas that are more likely to result in a successful transitioning of the
technology to the warfighter. The intent of the recommendation, based on the
lack of coordination among two of the diverse groups, was to examine those
efforts that do not have adequate coordination as recommended in the
Handbook, the Guide, and Defense Systems Management College training. We
believe that continued expenditure of advanced technology demonstration funds
without the proper coordination for technology efforts is inappropriate and
ignores lessons learned. Therefore, we request that the Assistant Secretary of
the Army for Acquisition, Logistics, and Technology reconsider his position and
provide additional comments to the final report.




                                    17
           B. Performance Assessments
           The performance appraisal process was not effectively used as a
           management tool to assist in achieving DoD performance goals and the
           Army Materiel Command’s corporate objective of transitioning
           technology quickly to the warfighter. This condition exists because the
           Centers did not incorporate performance goals necessary for successful
           technology transitioning into the S&T project managers’ performance
           plans. As a result, the Army Materiel Command’s Research,
           Development and Engineering Centers (Centers) were not fully applying
           the Deputy Under Secretary of Defense (Science and Technology) best
           practices and Army guidance on managing and coordinating the
           transition of technology.

Background
    Deputy Under Secretary of Defense (Science and Technology). The Deputy
    Under Secretary of Defense (Science and Technology) issued a Handbook
    followed by a Guide to the Military Departments and Defense agencies
    concerning practices that he believes, if instituted, would assist in achieving the
    DoD goal for transitioning technology.

            Addressing Affordability in Defense Science and Technology (S&T):
    A Handbook for S&T Managers. In October 1999, the DoD S&T
    Affordability Task Force issued a Handbook that stressed the importance of
    involving all candidate acquisition programs; that is, the acquisition program
    managers, in developing research. The Handbook emphasized that effective
    transitioning of technology should include establishing IPT groups, creating an
    IPT charter, identifying and agreeing to quantitative metrics and key exit
    criteria, developing formal transition plans, and developing memorandums of
    agreement or understanding. The Handbook stressed that, through the
    establishment of working groups and agreements with all candidate acquisition
    programs such as the receiving program office and the user, evolving
    technology has a better chance of transitioning.

    The Handbook also stated that one of the keys to successful transitioning is
    implementing an S&T personnel assessment process that is based on
    transitioning and affordability, in addition to technical personal achievement and
    papers.

            Technology Transition for Affordability: A Guide for S&T Program
    Managers. In April of 2001, the Deputy Under Secretary of Defense (Science
    & Technology) issued a Guide to provide S&T project managers with strategies
    for achieving technology transitioning. The Guide emphasized the importance
    of teaming with the customer; that is, the acquisition program manager. The
    Guide stated that, although S&T projects are viewed as pre-acquisition, S&T
    inclusion in the new acquisition policy (DoD Instruction 5000 and
    DoD 5000.2-R) should serve to focus resources on improving transitioning.
    The implementation of the new acquisition policy that includes S&T in the

                                         18
    acquisition process will yield increased connectivity, visibility, and
    communication among the S&T community, the acquisition community, and the
    user, all of which are important for effective transitioning.

    Army Materiel Command’s Strategic Plan. The Army Materiel Command
    (AMC) issued its strategic plan in July 2001. The AMC Strategic Plan
    identifies eight strategic goals as instrumental to the AMC and the Army’s
    successful transformation outlined in the Army vision. To accomplish the
    8 strategic goals, the AMC promulgated 14 objectives. Three of the AMC
    objectives include developing and implementing an AMC corporate S&T
    capability to integrate all organizations and disciplines in support of the Army
    transformation; developing and implementing processes to rapidly acquire and
    field the best technology to transform the force and enhance survivability,
    lethality, deployability and affordability; and developing and implementing a
    process to transition technology to materiel developers (acquisition program
    managers) in a timely manner. The AMC Strategic Plan provides a framework
    to build the AMC of the future and stresses that its success requires a total
    commitment from every leader, manager, and associate. The AMC Strategic
    Plan also requires each AMC element to develop a corresponding plan with
    goals, objectives, and metrics that are closely aligned to the framework of the
    AMC Strategic Plan.

Project Manager Performance Plans
    Major Subordinate Commands and Personal Performance Objectives. On
    September 12, 2001, the Commander, AMC, issued a memorandum reiterating
    that major subordinate commands are required to prepare their Strategic Plans
    and Command Objectives in consonance with the AMC Strategic Plan. The
    AMC memorandum also required that major subordinate commands link every
    senior leader’s performance plan, down to the division level, to the objectives of
    the major subordinate commands.

    The personal performance plans obtained for S&T project managers at the
    Armament Research, Development, and Engineering Center of the Army Tank-
    automotive and Armament Command; and the Aviation Applied Technology
    Directorate of the Army Aviation and Missile Command, did not include
    adequate S&T performance requirements necessary to enhance technology
    transitioning.

    Armament Research, Development and Engineering Center. Examination of
    performance plans for S&T project managers identified that the managers are
    responsible for technical program management, engineering design and support,
    financial management, and training and security.

    Technical program management responsibilities include planning, scheduling,
    and coordinating all major activities related to the S&T project; conducting




                                        19
briefings on S&T tasks; attending and participating in meetings and conferences;
overseeing test plan preparation; coordinating and witnessing tests; and
conducting special projects or tasks involving planning, control, analysis, and
execution.

Engineering design and support responsibilities include providing engineering
support; providing guidance on follow-on design efforts; and preparing
requirements to software contractors.

Financial management responsibilities include developing funding requirements
and expenditure plans; reviewing funding performance; and maintaining
expenditures within financial guidelines.

Training and security focused on obtaining training and being aware of and
complying with security procedures.

None of the plans discussed performance requirements in relation to
transitioning S&T projects to acquisition programs. The incorporation of this
performance element in S&T project managers’ performance appraisals would
emphasize the importance of transitioning technology.

Aviation Applied Technology Directorate. The review of S&T project
managers’ performance plans at the Aviation Applied Technology Directorate
showed that the technical personnel were responsible for project planning,
project execution, professional development, and team leadership.

Project planning functions include planning realistic and executable schedules
within budget constraints; identifying mission needs and deficiencies;
coordinating efforts vertically and horizontally with other organizations;
developing project plans, including need, technology feasibility, cost estimates;
developing, evaluating, and negotiating contract work efforts, engineering
specifications; and developing contract data requirements.

Project execution responsibilities include maintaining cognizance and
responsibility for execution of assigned S&T projects so that technical cost and
schedules are quantifiable and commensurate with project plans; identifying
project perturbations and taking timely corrective actions; ensuring proper
expenditure of funds; and satisfying customers (internal and external).

Professional development and team leadership include maintaining technical
competence and cultivating professional and personal growth of team personnel.

The inclusion of project planning, project execution, professional development,
and team leadership are all important performance elements for the S&T project
managers. The inclusion of a performance element concerning technology
transition would help highlight that proven technology must transition to the
warfighter.

Performance Assessments. Although the S&T project managers’ performance
attributes identified at the Center and the Directorate are valuable in executing
S&T projects, the S&T project managers are not required to establish and
                                    20
    maintain the necessary attributes for coordination and technology transitioning
    identified in the Deputy Under Secretary of Defense (Science and Technology)
    Handbook and Guide.

    As identified, S&T project managers were not held accountable for establishing
    a process to enhance technology transitioning. The inclusion of the requirement
    in S&T project managers’ performance plans to establish and maintain formal
    coordination with all candidate acquisition programs through establishing IPT
    groups, creating IPT charters, formalizing and maintaining up-to-date
    agreements with all candidate acquisition programs of quantitative metrics and
    key exit criteria, establishing formal transition plans, and developing
    memorandums of agreement or understanding would significantly assist
    technology transitioning.
    The inclusion of those requirements would hold S&T project managers
    accountable for establishing a process to enhance transition and serve as a basis
    for assessing performance as required by Army Pamphlet 70-3. In addition, the
    performance assessment process would be a management tool at the S&T project
    manager level (as opposed to only at the division level) to assist in achieving the
    AMC Strategic Plan and the requirement of the AMC memorandum of
    September 12, 2001, by providing a link between performance assessments and
    technology transitioning.

Conclusion
    The Department of the Army Pamphlet 70-3, “Army Acquisition Procedures,”
    July 15, 1999, provides discretionary guidance on materiel acquisition
    management. The Pamphlet is relevant to research, development, and
    acquisition efforts. The Pamphlet defines technology transition after a validated
    need is approved and after the technologies critical to performance have been
    proved. The Pamphlet states that technology transitioning requires early
    coordination among the S&T project manager, the acquisition program
    manager, and the user. The Pamphlet provides that, prior to transitioning, the
    technology must be demonstrated, tested, and shown to be predictable; that
    there must be a clear military need for the capability; and that the technology
    introduction must be cost-effective. The Pamphlet states that an S&T project
    manager will be assigned to each technology project and that the timely
    accomplishment of the technology should be a basis for assessing the
    performance of the S&T project manager. Examination of S&T project
    managers performance plans showed that they do not adequately satisfy the
    intent of Army Pamphlet 70-3, and performance plans should explicitly require
    actions related to technology transitioning as a performance element.




                                        21
Recommendation, Management Comments, and
Audit Response
   B. We recommend that the Commander, Army Materiel Command require
   that the personnel performance plans for managers responsible for
   advanced technology development-funded programs at its Research,
   Development and Engineering Centers explicitly require an assessment of
   managers’ performance with planned technology users. The performance
   plans should include performance assessments for the establishment of
   integrated product teams with all planned technology users, creation of
   integrated product team charters, coordination and acceptance of
   quantitative metrics and key exit criteria with all planned users,
   development of transition plans that are formally agreed to by all planned
   users, and the development and maintenance of up-to-date memorandums
   of agreement or understanding with all planned users.

   Management Comments. The Commander, Army Materiel Command did not
   provide comments to the draft report; however, the Assistant Secretary
   concurred with comment. The Assistant Secretary stated that the Department of
   the Army concurs with the philosophy of linking personnel performance to
   program performance. However, only the ATD managers should be held
   accountable for transition since the predominance of S&T is trying to
   demonstrate what is possible, and STO technology is too immature for
   transition. The Assistant Secretary stated that the Commander, Army Materiel
   Command is reviewing the recommended approach to require an assessment for
   ATD managers with other performance metrics, such as achieving TRLs.

   Audit Response. We considered the Assistant Secretary’s comments in
   preparing the final report. We clarified the recommendation to address the need
   to include technology transitioning in performance plans for managers who are
   responsible for advanced technology development programs as opposed to basic
   and applied technologies.

   The Assistant Secretary’s comments were partially responsive. We believe that
   the policy of linking personnel performance to program performance should
   apply to STO managers as well as ATD managers. We see no distinction
   between ATD and the STO managers’ responsibility in that the programs being
   managed are supported with advanced technology development funds. Linking
   technology transitioning to S&T managers’ performance would assist in
   establishing a tone that the DoD is serious about enhancing the likelihood of
   providing advanced technologies to the warfighter. We request that the
   Commander, Army Materiel Command provide comments to this
   recommendation in the final report.




                                     22
Appendix A. Scope and Methodology


Scope
    We examined 20 S&T projects at the Army Tank-automotive and Armament
    Command, Armament Research, Development and Engineering Center and the
    Army Aviation and Missile Command, Aviation Applied Technology
    Directorate to evaluate the management process for transitioning successful
    technologies to the warfighter. The S&T projects examined at the two Army
    sites visited were funded with research, development, test, and evaluation
    appropriations for advanced technology development and had expenditures of
    $441.5 million and planned additional funding of $244.4 million.

    We did not evaluate the technical merits of the S&T projects. We did not
    review the management control programs at the Army Tank-automotive and
    Armament Command, Armament Research, Development and Engineering
    Center or the Army Aviation and Missile Command, Aviation Applied
    Technology Directorate. We limited our management control review to the
    management procedures of transitioning technology from S&T projects to the
    acquisition program managers.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Weapon System Acquisition (DoD WEP SYS ACQ) high-risk area.

Methodology
    We conducted interviews with S&T and acquisition program officials, and
    examined applicable key documentation. Key documentation reviewed included
    guidance advocated by the Deputy Under Secretary of Defense (Science and
    Technology); the Army Science and Technology Master Plan for 2001; the
    Ten-Question Quad Chart; integrated product team charters and meeting
    minutes; memorandums of understanding or agreement; acquisition program
    funding profiles; S&T management plans; technology transition paths or plans;
    the AMC Strategic Plan; the research, development, test, and evaluation budget
    item justification sheet (R-2 Exhibit); and performance plans for S&T project
    managers. We reviewed key documentation dated from April 1993 through
    October 2001. We also conducted interviews with S&T management officials at
    the Office of the Secretary of Defense and the Army.

    We relied on computer-processed data without performing tests of general and
    application system controls to confirm the reliability of the database. We
    obtained a computerized listing of Army research, development, test, and
    evaluation appropriations for advanced technology development from the Office

                                       23
    of the Deputy Assistant Secretary of the Army for Research and Technology.
    We relied on the computerized listing to represent the known universe of S&T
    projects in our review of the management process. We validated the total
    funding on the computerized listing to the total funding of the Army research,
    development, test, and evaluation appropriations for advanced technology
    development. The S&T projects reviewed at the two sites visited were active
    S&T projects and correlated to the data in the computerized listing. Validating
    the computerized listing to the appropriations was deemed appropriate for this
    audit because the audit’s objective was to examine the management process for
    transitioning technology, not the individual S&T projects, and further validation
    of the computerized listing would not change the conclusions in this report.

    Audit Dates and Standards. We performed this program results audit from
    April 2001 through January 2002 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and organiza-
    tions within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38 “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and evaluate the adequacy of
    the controls.

    Scope of the Review of the Management Control Program. We evaluated the
    management control process to determine whether effective management
    procedures were established to transition successful S&T projects to acquisition
    program managers and, ultimately, to the warfighter.

    Adequacy of Management Controls. The audit identified that the Army
    leadership created a comprehensive high-level management oversight process to
    approve and review proposed and ongoing technologies. However, the Army
    S&T oversight process does not require the involvement of program executive
    officers or individual acquisition program managers. The Army S&T oversight
    process also does not require the establishment of formal coordination
    documents with acquisition officials as a condition for approval of continued
    funding. The absence of acquisition officials and formal coordination
    documents in the oversight process is considered a material management control
    weakness, as discussed in the Finding section of this report. The
    recommendations for both findings, if implemented, will improve the
    transitioning of technology to the acquisition program manager and to the
    warfighter. A copy of the report will be provided to the senior Army official
    responsible for management controls.



                                       24
Prior Coverage
      During the last 5 years, the General Accounting Office issued two reports
      discussing the benefits of adequately managing the challenges of transitioning
      technologies to warfighters.

General Accounting Office

      Report No. GAO-1-311, Defense Acquisition: Army Transformation Faces
      Weapon Systems Challenges, May 21, 2001

      Report No. NSIAD-99-162, Best Practices: Better Management of Technology
      Development Can Improve System Outcomes, July 30, 1999




                                         25
 Appendix B. Technology Readiness Levels and
             Their Definitions
The following matrix lists the various technology readiness levels and provides a
description of each as listed in Appendix 6 of DoD 5000.2-R, “Mandatory Procedures
for Major Defense Acquisition Programs (MDAPS) and Major Automated Information
System (MAIS) Acquisition Programs,” 10 June 2001.

  Technology Readiness Level                                          Description
 1. Basic principles observed and          Lowest level of technology readiness. Scientific research begins to
 reported.                                 be translated into technology’s basic properties.
 2. Technology concept and/or              Invention begins. Once basic principles are observed, practical
 application formulated.                   applications can be invented. The application is speculative and
                                           there is no proof or detailed analysis to support the assumption.
                                           Examples are still limited to paper studies.
 3. Analytical and experimental            Active research and development is initiated. This includes
 critical function and/or characteristic   analytical studies and laboratory studies to physically validate
 proof of concept.                         analytical predictions of separate elements of the technology.
                                           Examples include components that are not yet integrated or
                                           representative.
 4. Component and/or breadboard            Basic technological components are integrated to establish that the
 validation in laboratory                  pieces will work together. This is relatively “low fidelity” compared
 environment.                              to the eventual system. Examples include integration of “ad hoc”
                                           hardware in a laboratory.
 5. Component and/or breadboard            Fidelity of breadboard technology increases significantly. The basic
 validation in relevant environment.       technological components are integrated with reasonably realistic
                                           supporting elements so that the technology can be tested in
                                           simulated environment. Examples include “high fidelity” laboratory
                                           integration of components.
 6. System/subsystem model or              Representative model or prototype system, which is well beyond
 prototype demonstration in a              the breadboard tested for level 5, is tested in a relevant
 relevant environment.                     environment. Represents a major step up in a technology’s
                                           demonstrated readiness. Examples include testing a prototype in a
                                           high fidelity laboratory environment or in a simulated operational
                                           environment.
 7. System prototype demonstration         Prototype near or at planned operational system. Represents a major
 in an operational environment.            step up from level 6, requiring the demonstration of an actual
                                           system prototype in an operational environment. Examples include
                                           testing the prototype in a test bed aircraft.
 8. Actual system completed and            Technology has been proven to work in its final form and under
 qualified through test and                expected conditions. In almost all cases, this level represents the
 demonstration.                            end of true system development. Examples include developmental
                                           test and evaluation of the system in its intended weapon system to
                                           determine whether it meets design specifications.
 9. Actual system proven through           Actual application of the technology in its final form and under
 successful mission operations.            mission conditions, such as those encountered in operational test
                                           and evaluation. Examples include using the system under
                                           operational mission conditions.



                                                        26
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Science and Technology
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Training and Doctrine Command
Deputy Chief of Staff for Programs
Commander, Army Materiel Command
   Commander, Tank-automotive and Armaments Command
      Armament Research and Development Engineering Center
   Commander, Aviation and Missile Command
      Director, Aviation Applied Technology Directorate
Project Executive Officer for Aviation
Project Executive Officer for Ground Combat and Support Systems
Auditor General, Department of the Army

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

                                         34
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
Bruce A. Burton
Roger H. Florence
Rudolf Noordhuizen
Alquinton S. Wiggins
Brian K. Jacques
Shavon M. Carter
Patrick M. Sampson
Jacqueline N. Pugh
